No.

IN THE
SUPREME COURT OF THE UNITED STATES

Devlfl.

— PETITIONER
(Your Name)

dr fa £r

— RESPONDENT(S)
PROOF OF SERVICE

In

2L___________ , do swear or declare that on this date,
2=1., as required by Supreme Court Rule 29 I have
...2
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:

N//i\- U.S.

C>ur-f uglrrvfe,

J_cwly nctA-fo-flii

as }S.

If you are an inmate confined in an institution and not represented by counsel, you need
file only the original of the motion for leave to proceed in forma pauperis, affidavit or
_ declaration when needed in support of the motion for leave to proceed in forma pau­
peris, the petition for a writ of certiorari, and proof of service.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

%

2_z_, 2022-

